Ofﬁce of the Inspector General
                                                                          Semiannual Report to the Congress
                                                          April 1, 2005 through September 30, 2005




 Office of the Inspector General/Semiannual Report to Congress                                           1
U.S.       GOVERNMENT                          PRINTING           OFFICE      I   KEEPING    AMERICA   INFORMED
The U.S. Government Printing Ofﬁce                              The Ofﬁce of the Inspector General

For well over a century, the mission of the U.S. Government     The Ofﬁce of the Inspector General (OIG) was created by
Printing Ofﬁce (GPO) under the Public Printing and              the Government Printing Ofﬁce Inspector General Act of
Documents statutes of Title 44, U.S. Code, has been to          1988, Title II of Public Law 100-504 (October 18, 1988).
fulﬁll the needs of the Federal Government for information      The mission of the GPO OIG is to provide leadership and
products and to distribute those products to the public.        coordination, and to recommend policies to prevent and
The GPO is the Federal Government’s primary centralized         detect fraud, waste, abuse and mismanagement, as well as
resource for gathering, cataloging, producing, providing,       to promote economy, efﬁciency, and effectiveness in GPO’s
authenticating, and preserving published U.S. Government        programs and operations. The OIG offers an independent
information in all its forms. GPO is responsible for the        and objective means of keeping the Public Printer and the
production and distribution of information products and         Congress fully informed about problems and deﬁciencies
services for all three branches of the Federal Government.      relating to the administration and operations of the
Under the Federal Depository Library Program, GPO               GPO. To meet these responsibilities, the OIG conducts
distributes a broad spectrum of Government publications         audits, evaluations, investigations, inspections, and other
in print and online formats to more than 1,250 public,          reviews. The OIG is dedicated to acting as an agent of
academic, law, and other libraries across the country. In       positive change to help the GPO improve its efﬁciency
addition, GPO provides public access to ofﬁcial Federal         and effectiveness as it undertakes its unprecedented
Government information through public sales and other           transformation.
programs, and, most prominently, by posting more than
a quarter of a million Government titles online through
GPO Access (www.gpoaccess.gov).
                                                                “The OIG offers an
    Today, many documents no longer require typesetting,        independent and objective
printing, or binding and there is no tangible document
to make its way to library shelves or to be preserved for       means of keeping the
the future. This evolution of document creation and
dissemination has provided GPO with a signiﬁcant
                                                                Public Printer and the
challenge to its future relevance and viability. GPO is         Congress fully informed
meeting this challenge by transforming into an entity
capable of delivering Federal information products              about problems and
and services from a ﬂexible digital platform. While the
introduction of digital technology may change the way           deﬁciencies relating to
GPO’s products and services will be created and how they
will look and function, GPO will continue to satisfy the
                                                                the administration and
Government’s changing information requirements, and             operations of the GPO.”
accomplish its mission of Keeping America Informed.




Office of the Inspector General/Semiannual Report to Congress
Contents
Message from the Inspector General .................................................................................................... 1

Executive Summary ...........................................................................................................................................................3

GPO Management Challenges ......................................................................................................................................4

Ofﬁce of Audits ...................................................................................................................................................................7
   A. Summary of Audit Activity ..........................................................................................................................................7
   B.     Audit Accomplishments – Audit Reports ......................................................................................................................7
   C. Quality Assurance Activity ............................................................................................................................................8
   D. Advice and Assistance ...................................................................................................................................................9
   E.     Update of AO Policy Manual .......................................................................................................................................9
   F.     Work in Progress ............................................................................................................................................................9
   G. Status of Open Recommendations ...............................................................................................................................9
          Statistical Table – Audit Reports with Questioned and Unsupported Costs ..............................................................10
          Statistical Table – Audit Reports with Recommendations ..........................................................................................11
          Statistical Table – List of Audit Reports Issued During Reporting Period .................................................................11

Ofﬁce Of Investigations .................................................................................................................................................13
   A. Summary of Investigative Activity ..............................................................................................................................13
   B.     Types of Cases ............................................................................................................................................................13
   C. Status of Action on Referrals ......................................................................................................................................13
   D. Investigative Case Dispositions ....................................................................................................................................14
   E.     Work-In-Progress .........................................................................................................................................................14
          Statistical Table – Summary of Investigative Case Workload .....................................................................................15
          Statistical Table – Ofﬁce of Investigations Productivity Summary .............................................................................15

Ofﬁce Of Administration And Inspections .............................................................................................................17
   A. Summary of Inspections Activity ................................................................................................................................17
   B.     Inspection Accomplishments – Inspection Reports.....................................................................................................17
   C. Work-In-Progress .........................................................................................................................................................18
   D. Status of Previous Report Recommendations .............................................................................................................19
                                                Message from the Inspector General
                                                This semiannual report summarizes the work of the Government Printing
                                                Ofﬁce (GPO) Ofﬁce of Inspector General (OIG) from April 1, 2005 through
                                                September 30, 2005. The audits, investigations, inspections, and other
                                                activities highlighted in this report demonstrate our commitment to the
                                                promotion of integrity, accountability, efﬁciency, and effectiveness in the
                                                programs and operations of the GPO.

                                                These past six months saw continued progress of our effort to more closely
                                                align the objectives, goals, and priorities of the OIG with those of the
                                                Agency. While ever careful to maintain our independence, we have worked
                                                hard to ensure that our work is in line with and supports the Agency’s
                                                strategic vision. As part of that effort we recently developed our own
                                                strategic plan, the product of nearly three months of meetings, discussion,
                                                and strategic thinking about the Agency’s vision for the future and how the
        “We have                                OIG ﬁts into that vision. This new plan will, among other things, serve as our
                                                guide in planning the audit and other work that we will undertake over the
        continued to                            course of the next three years.

        focus our limited                       In addition to “big picture” thinking and long-term planning, the past six
                                                months also saw a number of signiﬁcant audit, inspection, and investigative
        resources on the                        accomplishments which are described in the pages that follow. We have
                                                continued to focus our limited resources on the Agency’s priority issues,
        Agency’s priority                       including, most fundamentally, its transformation from a 19th Century “ink
                                                on paper” factory to a 21st Century state-of-the-art collector, processor and
        issues.”                                provider of government information. This unprecedented transformation
                                                presents a multitude of challenges for not only the Agency, but for the OIG
                                                as well. I am conﬁdent, however, that we can and will meet the challenges
                                                that lie ahead.

                                                Finally, I am pleased to report continued improvement in the OIG’s
                                                relationship and communication with key GPO leaders and managers. We
                                                have, during the past six months, conducted unprecedented liaison with all
                                                aspects of GPO management in an effort to better understand how the OIG
                                                can help the Agency achieve its strategic objectives. Only by working closely
                                                together can the OIG and GPO management realize their common goal of
                                                seeing GPO successfully transform.




                                                Gregory A. Brower
                                                INSPECTOR GENERAL
                                                U.S. Government Printing Ofﬁce



Office of the Inspector General/Semiannual Report to Congress                                                                    1
Executive Summary

Highlights of this Semiannual Report                               U.S. Attorneys ofﬁces and other DOJ ofﬁcials to discuss
                                                                   important issues of mutual interest. These meetings have
During this reporting period, the OIG continued to direct          already resulted in closer cooperation between the OIG’s
its resources to address those areas of greatest risk within       investigators and DOJ attorneys. We also organized a series
GPO. We provided a variety of services, including program          of meetings with Congressional staffs in an effort to solicit
and ﬁnancial audits, inspections and evaluations of key            input as we developed a new strategic plan and work plan.
operations, and investigative activity resulting in criminal
and administrative actions. We also continued to provide           New Strategic Plan
general and professional assistance and reviews of proposed        The OIG recently unveiled its new Strategic Plan
legislation and regulations. The work of each of the OIG’s         Fiscal Years for 2006-2008. This new three-year plan
three ofﬁces is brieﬂy highlighted below.                          was developed in close consultation with a variety of
    The Ofﬁce of Audits (OA) issued two reports with a total       stakeholders, both from within GPO and from outside the
of 11 recommendations for further improvements and                 Agency, and is aimed at aligning the OIG’s strategic vision
efﬁciencies in GPO activities and operations. The OA also          with that of the Agency, while maintaining the OIG’s
continued to work jointly with GPO management during this          statutory independence. The plan contains a new vision,
period to close open audit recommendations. In addition, the       mission statement, set of guiding principles, and list of goals
OA worked with management to develop the statement of              to be achieved within the next three years. The entire plan
work for a new ﬁnancial statement audit contract.                  can be found at www.gpo.gov/oig.
    The Ofﬁce of Investigations (OI) opened 16 new investigative
cases in response to 104 new complaints or allegations, and        Updated Work Plan
closed 17 matters. The OI also submitted a Management              After extensive meetings within the OIG and with a variety
Implication Report to agency ofﬁcials, concerning                  of external stakeholders, we developed a new work plan
the agency’s “web harvesting” activity. Through its                for Fiscal Years 2006-2007. This plan includes a list of
investigative efforts during this period, the OI recovered a       those audits and inspections that we have determined to
total of $36,000 and helped GPO realize cost savings of            be priorities during the next 24 months. The plan will be
$69,000 through the successful investigation of workers            available at www.gpo.gov/oig.
compensation fraud.
    The Ofﬁce of Administration and Inspections (AI) issued        Review of Legislation and Regulations
three reports during this reporting period. Two of these
reports concerned the implementation of a Public Key               The OIG, in fulﬁlling its obligations under the Inspector
Infrastructure (PKI) by GPO. The third report, conducted           General Act of 1978, is responsible for reviewing existing
in conjunction with the Ofﬁce of Audits, reviewed GPO’s            and proposed legislation and regulations relating to
internal control program.                                          programs and operations of the GPO and to make
                                                                   recommendations in its semiannual reports concerning the
                                                                   impact of such legislation or regulations on the economy
OIG Management Initiatives                                         and efﬁciency in the administration of programs and
                                                                   operations administered or ﬁnanced by the GPO. We have
Outreach Efforts                                                   continued to play an active role in this area in an effort to
Recognizing the increasingly important role that the federal       assist the Agency achieve its goals.
OIGs are playing in our nation’s overall law enforcement              The OIG reported in its last semiannual report that it
strategy, and in an effort to foster a closer working              anticipated reviewing new legislation concerning GPO’s
relationship with the U.S. Department of Justice (DOJ),            proposal to relocate to a new facility. The OIG is reviewing
senior OIG managers initiated meetings with various                a draft proposal and will continue to work with GPO
                                                                   management concerning this important matter.




Office of the Inspector General/Semiannual Report to Congress                                                                      3
    GPO Management Challenges
    As the Agency transforms, GPO management continues to
    confront a variety of substantial and difﬁcult issues of great
    importance to a successful transformation. Chief among
    these issues is the need to transition from a “stovepipe”
    operational culture to one of effective collaboration,
    communication, and cooperation within the Agency.
    This will be necessary in order to achieve a more efﬁcient
    delivery of mission critical results, foster vital information
    sharing, and improve customer service both internally and
    externally. The OIG has identiﬁed the following challenges
    which are likely to hamper GPO’s transformation efforts if
    not dealt with aggressively:

    1. Management of Human Capital. GPO, like other agencies,
       continues to be affected by budget constraints, changing
       technology, competitive market conditions, and an
       aging workforce. These realities will continue to impact
       stafﬁng levels and maintenance of necessary workforce
       skills in the near term. GPO must have a plan to deal
       with these realities in the most economical and efﬁcient
       way possible.

    2. Improved Financial Management. GPO has begun the
       implementation of a new, Oracle-based, ﬁnancial
       management system. This substantial investment
       presents both great opportunities for enhanced efﬁciency
       and cost savings, and signiﬁcant risk in the event that the
       system does not operate as intended. GPO must ensure
       that this implementation is accomplished on time, on
       budget, and with a satisfactory result.




4               Office of the Inspector General/Semiannual Report to Congress
3. Continuity of Operations/Disaster and Emergency Preparedness.    7. New Facility. The GPO’s current buildings are too
   GPO is not adequately prepared to detect, identify                  large and antiquated, and continue to require an
   and respond to a natural or man-made disaster.                      extraordinary amount of ﬁnancial resources for
   Management must address the various aspects of this                 operation and maintenance. The Agency envisions
   problem, including training, lines of authority, direction          relocating to new facilities speciﬁcally sized and
   and responsibilities of GPO ofﬁcials.                               equipped for future requirements. The challenges
                                                                       attendant to such a move will be signiﬁcant for the
4. Internal Control. GPO management is responsible for                 Agency, and must be successfully addressed.
   establishing and maintaining a system of internal
   control to achieve the objectives of effective and efﬁcient      8. Information Technology Issues. The Agency faces a long
   operations, reliable ﬁnancial reporting, and compliance             list of challenges in the IT area including the GPO
   with applicable laws and regulations. GPO’s current                 Enterprise Program, PKI, network security, and
   internal control environment must be improved if the                compliance with the Federal Information Security
   Agency is to successfully implement its strategic vision.           Management Act (FISMA) as demanded by customer
                                                                       agencies. All of these issues are crucial to GPO’s future
5. Secure and Intelligent Documents (SID) Business Opportunities.      success and must be managed accordingly.
   SID is considered by GPO management to be the most
   important business unit for the future of the Agency.            9. Customer Service. As GPO transforms, its customer
   Signiﬁcant risks have been identiﬁed within SID,                    services must reﬂect and advance that transformation,
   including the potential loss of business opportunities,             and must have the appropriate focus, stafﬁng and
   that must be effectively mitigated if GPO is to realize             alignment with GPO’s Strategic Vision to be assured of
   the full potential of this new revenue source.                      future success.

6. Passport Security. Issues related to the production and          10. Acquisition of a Digital Content Management System. This
   transportation of blank passports continue to be a                   system, currently in the planning phase, will be the core
   priority. Among the current issues are completion of                 of GPO’s future operations. Current plans call for the
   the armored transportation procurement and successful                development of a $29 million system through a series of
   implementation thereof, ﬁnalization of a new MOU                     24 different procurements. This substantial investment
   with the Department of State, overall product security,              poses signiﬁcant risk to the Agency if not managed
   privacy and security concerns related to the biometric               properly.
   passport, offsite storage of surplus books, and the need
   for a secondary production facility. Each of these issues
   must be adequately addressed if GPO is to maintain its
   role as the source for U.S. passport production.



     “GPO management continues to confront a variety of substantial and
     difﬁcult issues of great importance to a successful transformation.”




Office of the Inspector General/Semiannual Report to Congress                                                                      5
Ofﬁce of Audits
The Ofﬁce of Audits (OA), as required by the Inspector           a legitimate need have travel cards; and (4) travel claims and
General Act Amendments of 1988, conducts independent             the repayment of travel advances are processed timely and
and objective performance audits, ﬁnancial audits, and           accurately.
special reviews relating to GPO’s operations and programs.
All OIG audits are performed in accordance with generally        Results In Brief
accepted government auditing standards promulgated               The audit found that management controls over GPO’s
by the Comptroller General of the United States. When            Travel Program can be strengthened. Speciﬁcally, the
requested, the OA also provides accounting and auditing          audit identiﬁed that: (1) travel cards were not always being
assistance to the OIG Ofﬁce of Investigations for both           used for purchases related to ofﬁcial travel; (2) some GPO
administrative and criminal investigations. The OA also          employees in possession of travel cards did not timely pay
refers irregularities and other suspicious conduct detected      their outstanding balances; (3) travel advances were not
during audits to the Ofﬁce of Investigations for investigative   always necessary, properly controlled or paid back in a
consideration.                                                   timely manner; and (4) travel claims submitted by some
                                                                 GPO employees were not reimbursed in accordance with
A. Summary of Audit Activity                                     the Federal Travel Regulations (FTR).
During this reporting period, the OA continued to work              To improve management controls over the Travel
cooperatively with GPO management to close nearly all            Program and help ensure that ofﬁcial travel by GPO
of the open recommendations carrying over from prior             employees is accomplished in the most cost-effective manner
reporting periods. As of the date of this report, only one       and in accordance with applicable GPO and Federal
such recommendation remains open. The OA issued two              travel policies and procedures, the OIG recommended the
new audit reports during this reporting period. These            following corrective actions:
reports made a total of 11 recommendations for improving
GPO’s operations, including strengthening of internal            1. The CFO should direct the A/OPC to review, on a
control throughout the Agency.                                      monthly basis, the Bank of America’s (BoA) monthly
                                                                    management report of travel card activity to ensure that
B. Audit Accomplishments –                                          cards are being used exclusively for expenses related to
    Audit Reports                                                   ofﬁcial travel.

1. Audit Report 05-04                                            2. The CFO should coordinate with appropriate GPO
   (Issued September 30, 2005)                                      ofﬁcials to compile a monthly report of all GPO
                                                                    employees on ofﬁcial travel and provide the report to
Report on the Audit of GPO’s Travel Program                         the A/OPC to compare the employees on ofﬁcial travel
                                                                    with the charges identiﬁed on the monthly management
The GPO Travel Program is administered by the Agency/               report of travel card usage provided by BoA to
Organization Program Coordinator (A/OPC) who is                     determine whether travel cards are being appropriately
assigned to the Cash Management Services Section in the             utilized.
Ofﬁce of the Chief Financial Ofﬁcer (CFO). The A/OPC
is responsible for issuing and tracking travel orders as well    3. The CFO should take appropriate action to suspend
as monitoring the usage of travel cards issued to GPO               the travel cards for those employees using the cards for
employees. The OIG performed an audit to evaluate the               purposes other than ofﬁcial Government travel.
effectiveness of GPO’s Travel Program. The objectives of
the audit were to determine whether: (1) adequate controls       4. The CFO should direct the A/OPC to review, on a
exist over the issuance and processing of travel orders,            monthly basis, BoA’s delinquency report on travel card
travel advances, and travel cards; (2) travel card usage is         activity to ensure that all delinquent employees are
monitored to ensure the cards are used only for ofﬁcial             identiﬁed, and their supervisors promptly notiﬁed so that
travel and that payments are timely; (3) only personnel with        appropriate action can be taken.

Office of the Inspector General/Semiannual Report to Congress                                                                  7
5. The CFO should develop procedures concerning the               2. Audit Report 05-05
   issuing, monitoring, and collecting of outstanding travel         (Issued September 30, 2005)
   advances to include, at a minimum (a) guidelines for
   whether employees with Government-issued travel cards          Report on Payment of Pre-employment Interview Travel Expenses
   are also eligible to receive travel advances; (b) timeframes
   for supervisory approval of travel advances related to         During the audit of the GPO Travel Program, OIG
   actual travel dates; and (c) guidelines for identifying and    auditors identiﬁed a situation where a candidate for a senior
   notifying employees with outstanding travel advances.          position with GPO submitted a claim for invitational travel
                                                                  and apparently received reimbursement for travel expenses
6. The CFO should reinstitute preparation of the General          incurred by his spouse related to a pre-employment
   Examination and Support Section’s Travel Advance               interview with GPO ofﬁcials in Washington, D.C.
   Subsidiary Record.
                                                                  Results In Brief
7. The CFO should consider eliminating travel advances            The Federal Travel Regulations (FTR), adopted by
   for employees with travel cards and implementing the           GPO in February 2005, generally governs ofﬁcial travel
   Automated Teller Machine feature of the travel cards for       by employees and prospective employees of the federal
   obtaining advances when needed.                                government. The audit identiﬁed that the FTR does not
                                                                  speciﬁcally allow for the payment of travel expenses for
8. The CFO should coordinate with the Managing Director,          spouses accompanying candidates on pre-employment
   Customer Services, to expedite processing of travel            interviews. Moreover, Section 301-75.3 of the FTR
   vouchers with travel advances on press sheet inspections       requires agencies to establish policies and procedures
   to allow for timelier billing of customer agencies for         governing: (1) the criteria in which individuals or positions
   reimbursement.                                                 qualify for payment of pre-employment interview travel
                                                                  expenses; (2) who determines that a person qualiﬁes; and
9. The CFO should mandate appropriate training on                 (3) who determines what expenses are authorized for each
   the requirements of the FTR for personnel, including           interviewee. We further found that GPO does not have any
   the A/OPC and voucher examiners, responsible for               speciﬁc policies and procedures governing pre-employment
   reviewing and approving travel claims.                         interview travel expenses.
                                                                     While the issue that brought this matter to our attention
10. The CFO should seek recovery of any funds improperly          was subsequently resolved, we recommended that the Chief
   reimbursed.                                                    Financial Ofﬁcer (CFO), in coordination with the Chief
                                                                  Human Capital Ofﬁcer (CHCO), establish policies and
   GPO Management concurred with each of the report’s             procedures governing pre-employment interview travel
recommendations and has taken, or has planned to take,            expenses in accordance with Sections 301-75.3 of the FTR.
responsive corrective actions to implement appropriate            The CFO and CHCO concurred with the recommendation
controls to ensure that the GPO Travel Program, including         and have agreed to take corrective action.
the use of travel cards, is in compliance with GPO and
Federal travel regulations, policies and procedures.              C. Quality Assurance Activity
                                                                  The OA maintains an internal quality assurance review
                                                                  program which assists the organization with ensuring
                                                                  compliance with generally accepted government auditing
                                                                  standards. One of the primary components of the program
                                                                  is performing periodic Quality Assurance Reviews (QARs)
                                                                  of audits that were previously completed and issued as




8                                                                             Office of the Inspector General/Semiannual Report to Congress
ﬁnal reports of the OIG. During this reporting period, the      E. Update of OA Policy Manual
OA initiated (but did not complete) a QAR of a previously       During this period, the Assistant Inspector General for
completed audit.                                                Audits led an effort to thoroughly review, revise and update
                                                                the OA’s Audit Policy Manual. The result of this effort, to
D. Advice and Assistance                                        date, is a working draft of a streamlined, up-to-date manual
During this reporting period, the OA provided advice and        that promises to enhance the quality and consistency of the
assistance to GPO management and other Federal audit            OA’s work product. We anticipate ﬁnalizing the manual and
organizations as follows:                                       implementing its contents during the ﬁrst quarter of FY
                                                                2006.
Financial Statement Audit Activity
The OIG provided support for the audit of GPO’s 2005            F. Work in Progress
ﬁnancial statements throughout this reporting period. Since     During this reporting period, we also continued our work
1997, Federal law, 44 U.S.C. 309, has required an annual        on an audit of GPO Purchase Card Activities. The overall
audit of the Agency’s ﬁnancial statements. KPMG LLP             objective of this audit is to evaluate the effectiveness of
(KPMG) has been retained to conduct this audit under a          GPO’s purchase card program. The speciﬁc audit objectives
multi-year contract for which the OA is the Contracting         are to: (1) determine whether GPO has implemented
Ofﬁcer’s Technical Representative (COTR). In addition,          appropriate management controls over the use of purchase
the OA provided administrative support and coordination         cards; (2) determine whether purchase cards are being used
with GPO management for the KPMG auditors. The audit            efﬁciently and cost-effectively; (3) evaluate the effectiveness
for Fiscal Year (FY) 2005 will be the last audit covered        of the examination and payment process for purchase card
under the current contract with KPMG. Consequently,             transactions; and (4) determine whether purchase cards
also during this period, the OA coordinated with the GPO        are being utilized in compliance with applicable laws,
Chief Financial Ofﬁcer, the Chief Information Ofﬁcer, and       regulations, policies and procedures. We anticipate issuance
other stakeholders to begin preparation of the statement-       of a ﬁnal report on this audit during the ﬁrst quarter of FY
of-work for the follow-on procurement of audit services         2006.
from qualiﬁed contractors for an audit of GPO’s ﬁnancial
statements for the FY ending September 30, 2006 and             G. Status of Open Recommendations
subsequent years.                                               GPO management ofﬁcials continued to make signiﬁcant
                                                                progress during this reporting period in implementing and
Liaison with GPO Managers                                       closing many of the recommendations contained in audit
The OA met with the entire GPO senior management team           reports issued during prior semiannual reporting periods.
during this period to address various audit issues, obtain      Speciﬁcally, GPO management worked in close cooperation
feedback on audit products and services, and solicit input      with the OIG to close 18 open recommendations, including
for the OIG’s new work plan. These meetings resulted            two of the three recommendations that were reported as
in communication that was critical to identifying and           open at the end of the previous reporting period. For the
prioritizing future audits and reviews that will help improve   one prior recommendation that remains open, a summary
GPO’s programs and operations. Valuable feedback was            of the audit ﬁnding and recommendation, along with the
also received that should improve the OIG’s work product,       status of GPO management’s actions to implement the
and the quality and frequency of communications between         recommendation appears below.
the OIG and GPO management.




Office of the Inspector General/Semiannual Report to Congress                                                                9
1. Audit Report 03-04                                           Recommendation
     (Issued September 30, 2003)                                The Managing Director of Customer Services should
                                                                implement an automatic interface between the PC database
Report on Improving Controls Over Printing Procurement          and PICS for entering future contract modiﬁcations data
Department’s Contract Modiﬁcations at Central Ofﬁce             (0304-02).

Finding                                                         Management Comments
Printing Specialists in the Printing Procurement                On August 26, 2005, the Managing Director of Customer
Department (PPD) were entering contract modiﬁcation             Services stated that the Customer Services Ofﬁce of
data twice into PPD’s two automated databases – a stand-        Development and Program Support has been monitoring
alone personal computer (PC) system and the Procurement         Information Technology and Security’s progress and
Information Control System (PICS) databases. Printing           reports that the projected date of completion has slipped.
Specialists were entering data twice because the two systems    The revised schedule now calls for completion of Phase I
were not interfaced, which is contrary to Standard 1 of         by the end of December 2005 with Phase II scheduled for
GPO Instruction 825.18A, “Internal Control Program.”            completion by March 2006.

                                                                OIG Comments
                                                                This recommendation will remain open until the Managing
                                                                Director of Customer Services completes and implements
                                                                the system enhancements described above.



 Statistical Table –
 Audit Reports with Questioned and Unsupported Costs
Description                                          Questioned Costs         Unsupported Costs                  Total Costs
Reports for which no management                            $0                            $0                           $0
decision has been made by the
commencement of the reporting period
Reports issued during the reporting period                  0                             0                            0
Subtotals                                                  $0                            $0                           $0
Reports for which a management
decision was made during the
reporting period
1. Dollar value of disallowed costs                        $0                            $0                           $0
2. Dollar value of allowed costs                           $0                            $0                           $0
Reports for which no management                            $0                            $0                           $0
decision has been made by the end
of the reporting period
Reports for which no management                            $0                            $0                           $0
decision has been made within
six months of issuance




10                                                                         Office of the Inspector General/Semiannual Report to Congress
 Statistical Table –
 Audit Reports with Recommendations That Funds Be Put to Better Use
Description                                                     Number of Reports   Funds Put to Better Use
Reports for which no management decision                               0                     $0
has been made by the commencement
of the reporting period
Reports issued during the reporting period                             0                     $0
Subtotals                                                              0                     $0
Reports for which a management decision
was made during the reporting period
• Dollar value of recommendations that were                            0                     $0
  agreed to by management
• Dollar value of recommendations that were                            0                     $0
  not agreed to by management
Reports for which no management decision has                           0                     $0
been made by the end of the reporting period
Report for which no management decision has                            0                     $0
been made within six months of issuance




 Statistical Table –
 List of Audit Reports Issued During Reporting Period
Other Audit Reports                                                                  Funds Put to Better Use
Report on the Audit of GPO’s Travel Program                                                    $0
(Report Number 05-04, issued 09/30/05)
Report on Payment of Pre-employment                                                            $0
Interview Travel Expenses
(Report Number 05-05, issued 09/30/05)
Total                                                                                          $0




Office of the Inspector General/Semiannual Report to Congress                                                  11
Ofﬁce of Investigations
The Ofﬁce of Investigations (OI) conducts and coordinates         Procurement Fraud
investigations relating to employee misconduct and                The OI investigates allegations of statutory violations
monetary or material losses occurring in GPO programs             involving GPO contractor service providers defrauding the
and operations. The subjects of these investigations              government in connection with GPO’s procurement of
may include contractors, program participants, GPO                printing goods and services. These violations include, but
management, and other employees. Special Agents in the            are not limited to, false claims, false statements, wire and
OI are Federal Criminal Investigators (Job Series 1811), and      mail fraud, product substitution, and Small Disadvantaged
are also designated as Special Police Ofﬁcers pursuant to 44      Business Program violations. The OI currently has eight
U.S.C. § 317. The OI’s investigations may result in criminal      open procurement fraud cases.
prosecution, civil proceedings, or imposition of administrative
sanctions. Prosecutions may result in court-imposed prison        Employee Misconduct
terms, probation, ﬁnes, and/or restitution.                       The OI investigates allegations involving GPO employee
                                                                  misconduct. These allegations include, but are not limited
A. Summary of Investigative Activity                              to, misuse of government computers, theft, assaults, drug
During this reporting period, the OI opened 16 investigative      violations, gambling, kickbacks, and travel voucher fraud.
cases in response to 104 new complaints or allegations, and       The OI has ﬁve active misconduct investigations.
closed 17 matters. Thirty-ﬁve investigative matters remain
open. The OI participated in the execution of two search          Miscellaneous
warrants related to allegations of fraud under the Federal        The OI investigates miscellaneous administrative allegations
Employee Compensation Act. Fourteen administrative                and other types of investigations that do not fall into
subpoenas were issued during the reporting period, and in         one of the above four categories. The OI has two active
one instance, the subject challenged the subpoena in U.S.         miscellaneous matters.
District Court. The U.S. Department of Justice, on behalf
of GPO, has requested that the Court enforce the subpoena.        C. Status of Action on Referrals
The OI also issued a Management Implication Report                The OI’s investigative efforts result in both external and
(MIR) following its investigation of a suspected computer         internal referrals for action. A summary of the status of
hacking incident involving the Agency. The OI also                outstanding referrals by the OI follows:
remains active in liaison efforts with GPO ofﬁces located in
various regions throughout the country. As a result, the OI       External
continues to receive information or complaints regarding          A total of six investigative matters were referred to the
allegations of fraudulent activities by GPO contractors.          U. S. Department of Justice (DOJ) for prosecution during
                                                                  this period. Civil and criminal actions are currently pending
B. Types of Cases                                                 on three of these referrals:
The OI’s investigative workload can be divided into the
following major categories:                                       ■   One current Ofﬁce of Workers’ Compensation Program
                                                                      (OWCP) investigation was accepted by DOJ for criminal
Ofﬁce of Workers’ Compensation Program                                prosecution.
(OWCP)
The OI investigates GPO employees who have allegedly              ■   One previously reported investigation into allegations of
submitted false claims and made false statements to                   false claims and false statements was accepted during this
facilitate their receipt of workers’ compensation beneﬁts.            reporting period for civil action. The total amount of
We currently have ten open investigations involving alleged           questioned over-billings in this matter is approximately
OWCP fraud.                                                           $400,000.




Office of the Inspector General/Semiannual Report to Congress                                                                  13
■    In another matter, DOJ accepted a referral from the OI       ■   An Executive Council on Integrity and Efﬁciency (ECIE)
     and assisted in the recovery of $24,355 from a GPO               Investigative Peer Review of the OI was conducted
     contractor who had erroneously received payment for              by the Farm Credit Association, Ofﬁce of Inspector
     work produced by a different company. The subject                General. The review found that the OI’s internal
     company initially refused to repay the Agency and after          safeguards and management procedures were in full
     several attempts were made by GPO management to                  compliance with the quality standards established by the
     recover the funds, the OI investigated the matter and            ECIE.
     then worked with the U.S. Attorney in Kansas to secure
     repayment.                                                   ■   The OI’s efforts in the workers compensation fraud area
                                                                      led to a recovery of $36,000 and additional cost savings
Internal                                                              of $69,000 to the Agency.
A total of ﬁve investigative matters were referred to GPO
management for action during this reporting period. Seven         ■   The OI has been participating in a Federal Procurement
investigative cases that were referred in previous reporting          Fraud Working Group formed by the U.S. Attorney for
periods remain pending with agency ofﬁcials for action.               the Eastern District of Virginia (EDVA). Participants
   OI investigative ﬁndings were also forwarded to the                in the group include representatives of various
appropriate Agency ofﬁcials for suspension, debarment, or             Federal Ofﬁces of Inspector General, Department
other administrative actions against Agency contractors.              of Defense investigative services, and DOJ attorneys.
As a result of OI investigative efforts during this reporting         The group meets regularly for the purpose of
period, the Agency debarred 15 contractor companies and               exchanging information concerning procurement fraud
ofﬁcials, and issued four Notices of Proposed Debarment,              investigations and prosecutions, and to discuss current
15 Show Cause Notices, and 14 Letters of Warning.                     topics in the ﬁght against fraud, waste, and abuse in
                                                                      federal government procurement programs.
D. Other Investigative Accomplishments
                                                                  E. Work-In-Progress
■    The OI, in conjunction with the Ofﬁce of                     Several signiﬁcant OI matters remain pending as of the end
     Administration and Inspections, conducted an                 of this reporting period. The disposition and results of these
     investigation into an alleged unauthorized access            investigations will be detailed in future reports. The following is
     or “hacking” into the Agency’s website. During               a summary of pending matters.
     the investigation, it was discovered that the Agency
     was involved in the harvesting of information from           ■   The OI continued its proactive approach to reducing
     other Federal agency websites, and that no hacking               workers’ compensation costs at GPO. As a result of a
     had occurred. The results of the investigation were              collaborative effort with the GPO Ofﬁce of Workers
     forwarded to Agency management via a Management                  Compensation Program (OWCP), the Agency has
     Implication Report (MIR). The recommendations made               realized a reduction of both Continuation of Pay (COP)
     in the MIR were accepted by GPO management and                   costs and Sick Injured Administrative (SIA) leave. The
     are currently being implemented.                                 OI is currently investigating/questioning $2.2 million
■    An investigation into alleged procurement fraud by a             dollars of the $6 million dollars in beneﬁts paid annually
     printing contractor, initiated during a previous reporting       by the GPO in long-term workers compensation
     period and continued into this reporting period, resulted        payments. In addition, all new claims are being reviewed
     in the recovery of $7,359 to the Agency. The Agency              to verify the legitimacy of beneﬁt payments.
     had previously recovered additional funds from the
     company as a result of the OI’s investigation which
     continues, and is expected to yield additional recoveries.




14                                                                             Office of the Inspector General/Semiannual Report to Congress
■   One GPO OWCP investigative case was accepted by                   ■   The OI investigated an allegation that ﬁve GPO
    DOJ for criminal prosecution. The U.S. Department                     employees obtained duplicate identiﬁcation badges and
    of Labor OIG recently assisted the OI with the                        misused those badges to commit Time and Attendance
    execution of two search warrants in the case, and several             fraud over a long period of time. The duplicate badges
    administrative subpoenas have been served. Results of                 were conﬁscated in the course of the investigation.
    this case will be detailed in a future report.                        The matter has been referred to GPO management for
                                                                          administrative action and remains pending.
■   The OI is investigating the alleged over-billing of
    approximately $400,000 in contracts by a GPO
    contractor. This matter is being evaluated by DOJ for
    civil action. Other allegations include the submission of
    false claims/false statements, and illegal sub-contracting.



    Statistical Table –
    Summary of Investigative Case Workload as of September 30, 2005
Workload Analysis                                                   Number of Cases
Beginning Case Workload as of October 1, 2004                              36
    New Allegations Received                                              104
    Matters Closed After Preliminary Investigation                        <88>
    Cases Opened                                                           16
    Cases Closed or Referred with No Further Action                       <17>
Ending Case Workload as of September 30, 2005                              35



    Statistical Table – Ofﬁce of Investigations Productivity Summary
Arrests                                                         0     Amounts Recovered Through
Total Cases Presented to USAO’s / SAO’s                         6     Investigative Efforts                            $36,000
 Criminal                                                       4     Total Agency Cost Savings Through
                                                                      Investigative Efforts                            $69,000
   Criminal Declinations                                        2
                                                                      Total Administrative Referrals                      5
   Convictions                                                  0
                                                                      Contractor Debarments                              15
   Guilty Pleas                                                 0
                                                                      Contractor Suspensions                              0
   Probation (days)                                             0
                                                                      Contractor Other Actions                           33
   Restitutions                                                 0
                                                                      Employee Suspensions                                0
 Civil                                                          2
                                                                      Employee Terminations                               0
   Civil Declinations                                           0
                                                                      Employee Warned/Other Actions                       2
                                                                      Other Law Enforcement Agency Referrals              0




Office of the Inspector General/Semiannual Report to Congress                                                                  15
Ofﬁce of Administration and Inspections
The Ofﬁce of Administration and Inspections (AI)                improve the OIG’s work product, and the quality and
provides the OIG with an alternative to traditional audit       frequency of communications between the OIG and GPO
and investigative disciplines to assess GPO programs and        management.
activities. AI conducts short-term reviews and evaluations
that generally focus on issues which are limited in scope       B. Inspection Accomplishments –
and time sensitive. As with other ofﬁces within the OIG,        Inspection Reports
the AI also assists the Inspector General in responding
to Congressional and GPO management requests for                1. Inspection Report AI0503
assistance.                                                        (Issued September 12, 2005)
                                                                GPO Smart Card/PKI Business Case Analysis
A. Summary of Inspection Activity
During the current reporting period, AI issued
                                                                Purpose
three reports. Two of these reports concerned the
                                                                To notify the GPO management of concerns associated
implementation of the Public Key Infrastructure (PKI) by
                                                                with the proposed “Smart Card/PKI” business strategy for
GPO. In addition, AI, in conjunction with the Ofﬁce of
                                                                the Security and Intelligent Documents business unit.
Audits, issued a review of GPO’s internal control program.
   During this reporting period, the AI also continued to
                                                                Findings/Recommendations
provide advice and assistance to GPO management as
                                                                As GPO embarked on its transformation to a digital
follows.
                                                                platform, it undertook the development “and stand up”
                                                                of a Public Key Infrastructure (PKI). One potential use of
Information Technology and Systems
                                                                GPO’s PKI certiﬁcate authority is the production and sale
AI provided ongoing advice and assistance to the Chief
                                                                of “smart cards.”
Information Ofﬁcer (CIO) concerning Information
                                                                   Homeland Security Presidential Directive 12 (HSPD12)
Technology (IT) services, IT security, the OIG “trusted
                                                                establishes the requirements for a common standard for
role” in the PKI project at GPO, and the implementation
                                                                identiﬁcation credentialing for Federal employees and
of the GPO Enterprise project.
                                                                contracting staff. This standard is based on smart cards
   In addition, AI continued to monitor work of the CIO
                                                                and PKI technologies, both of which are well-established
to mitigate risks in the GPO IT environment that were
                                                                commercially. While a number of initiatives to utilize Smart
reported by the KPMG ﬁnancial statement audit and the
                                                                Card/PKI technologies for this purpose have been on-
OIG inspection of GPO network vulnerabilities.
                                                                going in various Federal agencies, only a few are in wide-
                                                                scale deployment. HSPD12 requirements mandate the use
Plant Operations
                                                                of Smart-Card/PKI technologies in a phased approach
AI continued to provide advice and assistance to the
                                                                by October 2007. As a result, government agencies are in
Managing Director, Plant Operations concerning the
                                                                a race against time to ﬁnd implementation solutions that
security and product integrity of the electronic passport
                                                                ﬁt their size, budget, and needs. While larger agencies may
project.
                                                                choose in-house solutions, smaller agencies will likely seek
                                                                outsourced options, thus creating an opportunity for GPO
Liaison with GPO Managers
                                                                to leverage its years of experience in secure document
AI met with GPO senior management team during this
                                                                production, and add the necessary infrastructure to produce
period to address various inspection issues, obtain feedback
                                                                and deliver smart cards to other government agencies, and
on products and services, and solicit input for the OIG’s
                                                                could lead to a potentially substantial revenue stream in the
new work plan. These meetings resulted in communication
                                                                years ahead.
that was critical to identifying and prioritizing future
inspections that will help improve GPO’s programs and
operations. Valuable feedback was also received that should



Office of the Inspector General/Semiannual Report to Congress                                                             17
   The business case analysis offered 13 advisory                       3. Inspection Report AI0505
recommendations on which management must act quickly                       (Issued September 28, 2005)
and decisively should GPO wish to establish itself as
                                                                        GPO PKI Operating Procedures Compliance Audit Report
a provider of smart cards for the Federal government.
The OIG urged GPO management to review the
                                                                        Purpose
recommendations which provided an approach for
                                                                        Pursuant to request by the Chief Information Ofﬁcer
determining the costs, beneﬁts, and business risks of
                                                                        (CIO), the Ofﬁce of the Inspector General conducted a
implementing this new GPO service offering.
                                                                        compliance audit of the GPO Public Key Infrastructure
                                                                        (PKI) operating procedures for purposes of obtaining cross-
2. Inspection Report AI0504
                                                                        certiﬁcation with the Federal Bridge Certiﬁcate Authority.
     (Issued September 19, 2005)
                                                                        Speciﬁcally, the inspection included the following objectives:
Review of GPO’s Internal Control Program
                                                                        1) Identify issues that may preclude smooth operation of
Purpose                                                                    the GPO PKI;
The OIG initiated a review of GPO’s internal control                    2) Identify issues which may hamper GPO’s long term
program to identify ways to enhance the effectiveness of the               PKI goals; and
program, increase GPO management’s performance and                      3) Recommend changes to correct any deﬁciencies
improve operational results, and facilitate implementation                 discovered.
of GPO’s transformational initiatives.
                                                                        Findings/Recommendations
Findings/Recommendations                                                The OIG, through its contractor SeNet International,
This review included a brief overview of the importance                 identiﬁed a number of deﬁciencies and recommended
of internal control, a summary of internal control best                 appropriate mitigating measures. The CIO undertook
practices, a critique of GPO’s current internal control                 necessary corrective measures and SeNet re-inspected the
program, and a list of recommendations for improving                    areas of concern and issued a ﬁnal report dated September
GPO’s internal control.                                                 19, 2005. SeNet concluded that all areas of concern
    The review found that GPO has yet to fully develop                  had been resolved. The OIG concurred with SeNet’s
and follow an internal control program that will allow it to            conclusion. Accordingly, it was determined that GPO PKI
effectively manage the formidable tasks that lay ahead. At              operations conform to its Certiﬁcate Policy and Certiﬁcate
the present time, GPO’s primary internal control guidance               Practices Statement and operates in accordance with the
is found in Instruction 825.18A. This instruction must be               standards, guidelines and practices of the Federal PKI
updated and improved. More importantly, an updated and                  Policy Authority.
improved internal control program, once implemented,
must be strictly followed. GPO currently enjoys a unique                C. Work-in-Progress
window of opportunity to incorporate current Federal
Government and private sector best practices in control and             Network Security Vulnerability Assessment
governance as part of its overall transformation. Without               The objective of this inspection is to determine whether
such improvements in internal control, GPO’s ongoing                    sufﬁcient protection exists at the network and system levels,
effort to realize its Strategic Vision for the 21st century cannot be   from both an external and internal perspective, to prevent
fully successful.                                                       deliberate or unintentional harm to GPO data and its
    The review was advisory in nature. Accordingly, no                  resources. Initial ﬁndings indicate that the implementation
formal response was requested of GPO management. The                    and management of the security architecture supporting
OIG will continue to monitor management’s progress in                   the GPO enterprise network requires strengthening to
this area.                                                              more effectively restrict unauthorized internal access to
                                                                        information resources. The network security assessment


18                                                                                 Office of the Inspector General/Semiannual Report to Congress
revealed that GPO has implemented many effective                D. Status of Previous Report
controls for protecting information resources; however,         Recommendations
several areas were identiﬁed where GPO can improve
upon its security architecture to further enhance its overall   1. Inspection Report AI0404
security posture.                                                  (Issued September 28, 2004)
   This review entails both an external and internal
vulnerability assessment of GPO’s enterprise network.
                                                                Blank Passport Transportation Security
Included in the internal vulnerability assessment were a
wireless vulnerability scan and a review of previous audit
                                                                Findings/Recommendations
                                                                Previously, AI reviewed the effectiveness and security of the
ﬁndings. The internal vulnerability scans discovered a
                                                                process for transporting blank U.S. passports from GPO
signiﬁcant number of vulnerabilities that could lead to
                                                                to the several U.S. Department of State (DOS) passport
a compromise of the conﬁdentiality, integrity, and/or
                                                                locations. This inspection included recommendations for
availability of GPO systems and data. The results of the
                                                                improvement to ensure secure transportation of blank U.S.
external scans show that GPO has taken signiﬁcant steps
                                                                passports. More speciﬁcally, we found that the existing
to secure the perimeter network. No critical ﬁndings were
                                                                delivery process was seriously inadequate to afford the
discovered during the external phase. The inspection will be
                                                                necessary protection for documents of this sensitivity.
completed in the ﬁrst quarter of FY 06 and results will be
                                                                We made several recommendations to the Public Printer
reported in the next semiannual report to Congress.
                                                                including a recommendation to change the current delivery
                                                                process.
GPO’s Information Technology Strategy
AI continues to provide advice and assistance to the CIO
concerning the reorganization of IT services, IT security,
                                                                Management Action
                                                                GPO ofﬁcials concurred with the recommendations
and the process of migrating GPO legacy business systems
                                                                and commenced action to facilitate the secure process
to contemporary software and hardware platforms. AI will
                                                                for delivery of blank passports. However, the process
monitor the CIO’s work in mitigating risks in the GPO
                                                                has met with considerable obstacles. Accordingly, the
IT environment and will continue to provide advice and
                                                                recommendations have not yet been implemented. The
assistance for the 2004 Financial Statement Audit activity.
                                                                delay poses serious concerns about the security of blank
AI assigns staff as liaison and facilitator for IT security
                                                                passport transportation. The OIG will continue to monitor
testing and other IT assurance work conducted by the
                                                                progress and actively pursue with GPO management,
external auditor KPMG to support their opinion on the
                                                                effective strategies for resolving this signiﬁcant ongoing issue.
GPO’s ﬁnancial statements.

Disaster & Emergency Preparedness Review                        2. Inspection Report AI0502
                                                                   (Issued March 31, 2005)
During this reporting period, the OIG commenced
a review of the effectiveness of GPO’s processes and            Blank Passport Product Integrity and Security Review
procedures for implementing an emergency action plan
in response to natural disasters, emergencies, incidents,       Purpose
and threats of varying degree and nature. This inspection       This evaluation completed a series of reviews concerning
speciﬁcally examines GPO’s processes, procedures, and           the passport product and speciﬁcally addressed the GPO
authorities against the Federal Government best practice        passport manufacturing process to identify opportunities for
standards. Data collection has been completed and a ﬁnal        improved passport product security.
comprehensive report will be issued in the next reporting
period.                                                         Findings/Recommendations
                                                                The inspection revealed a number of weaknesses in the
                                                                blank passport production business processes, including


Office of the Inspector General/Semiannual Report to Congress                                                                 19
missing critical core competencies, deﬁcient processes,
and infrastructure issues that require GPO management
attention. In addition, the OIG found signiﬁcant
deﬁciencies regarding blank passport manufacturing,
component product security, and related internal controls
that require GPO management review and reengineering.

Management Action
GPO management generally concurred with the report’s
recommendations and has addressed some of the
weaknesses identiﬁed. The OIG will work in collaboration
with GPO management to monitor implementation of the
remaining recommendations.

3. Financial Statement Audit –
     KPMG Reccomendations

Findings/Recommendations
KPMG issued several IT security related ﬁndings in the
course of their 2004 Financial Statement Audit. The
ﬁndings addressed concerns in the overall GPO IT security
program, employee security awareness, segregation of
duties, and other issues.

Management Action
The CIO continues to take action on all of the
recommendations and has made substantial progress in
resolving all of the issues. The OIG continues to monitor
progress through monthly reports from the CIO.




For more information, visit the GPO OIG web site, www.gpo.gov/oig.



20                                                          Office of the Inspector General/Semiannual Report to Congress
          OIG Hotline 1.800.743.7574
               Report Fraud, Waste or Abuse




U.S. GOVERNMENT PRINTING O F F I C E

Office of the Inspector General


732 North Capitol Street, NW
Washington, D.C. 20401


202.512.0039
inspectorgeneral@gpo.gov
www.gpo.gov/oig
